                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                                                                  /I
                   .                                  OFFICE OF INVESTIGATIONS

       o                                       CLOSEOUT MEMORANDUM
                                                                                                  I




11   Case Number: I06090028                                                                  Page 1 of 1



           The National Science Foundation (NSF) Office of Inspector General conducted a proactive
           review of grants that included cost sharing contributions in excess of $500,000 annuall;. The
           purpose of the review was to assess compliance with applicable laws, regulations, and NSF
           award conditions. As part of that review, a Cooperative ~grpement'with this universi# was
           selected for review.                                                                     !,


           OIG contacted the university to request financial information and supporting documentation
           related to the grant. OIG reviewed the information submitted by the university and identified a
           possible shortfall in the cost sharing contributions made by the university to date. An 11
           investigation was initiated to determine if the university had mis-represented its cost sharing
           contributions required by the agreement.
                                                                                                   I
           We contacted the university to request additional documentation and information to clarify their
           initial submission. The university provided the additional financial documents and adequate
           explanations to the questions we raised in our review. Our review also determined that $he
           amounts of cost sharing reported each year were accurate and were found to be reasonable,
           allocable and allowable under the terms of the award.
                                                                                                       II
           Accordingly, this case is closed.


                                                                                                       11
